XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3761
Facsimile: (415) 703-1234
E-Mail: Arthur.Beever@doj.ca.gov

February 8, 2021

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, NE
Washington, DC 20543
Re:

Silveria v. California, No. 20-6684
Request for Extension of Time to File Response

Dear Mr. Harris:
I represent the respondent in the above-captioned capital case. The petition for a
writ of certiorari in this case was filed on December 16, 2020, and the state’s response
was due by January 21, 2021. I first became aware of the petition, however, when
contacted by the clerk’s office on February 3, 2021. It appears that the petition either was
not received by my office or was misdirected. We have since obtained a copy of the
petition and begun researching and drafting the response. We require additional time,
however, to complete the response and to undergo the necessary internal review before
our response is filed. For these reasons, we respectfully request an extension of the time
in which to file the response to Monday, March 22, 2021, which would be 60 days from
the original due date.
Sincerely,
/s/ Arthur P. Beever
ARTHUR P. BEEVER
Deputy Attorney General
State Bar No. 242040
For
SF2021400242
Silveria Ltr to Hon. Harris.docx

XAVIER BECERRA
Attorney General

No. 20-6684

In the Supreme Court of the United States
DANIEL T. SILVERIA, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Arthur P. Beever, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on February 8, 2021, one copy of the Letter to Hon. Scott S.
Harris, Clerk, of the United States Supreme Court in the above-entitled case
was mailed, first class postage prepaid to:
Timothy J. Foley
Senior Deputy State Public Defender
State Public Defender's Office - Sacramento
770 L Street, Suite 1000
Sacramento, CA 95814
(916) 322-2676
Counsel for Petitioner
I further certify that all parties required to be served have been served.
/s/ Arthur P. Beever
ARTHUR P. BEEVER, Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004
Telephone: (415) 510-3761
Counsel for Respondent
SF2021400242
42546970.docx

